Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 1 of 40

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
______________________
UNITED STATES OF AMERICA,
Plaintiff,
v.

17-CR-1723-WJ

ETHAN GUILLEN,
Defendant.

MEMORANDUM OPINION AND ORDER
GRANTING IN PART AND DENYING IN PART
DEFENDANT’S MOTION TO SUPPRESS EVIDENCE AND STATEMENTS
THIS MATTER comes before the Court upon the Motion to Suppress Evidence and
Statements Discovered as a Result of Unlawful Search and Seizure, filed September 13, 2017 by
Defendant Ethan Guillen (hereinafter “Defendant” or “Ethan”) (Doc. 31). Having reviewed the
relevant pleadings of the parties, having considered the testimony and evidence presented at the
suppression hearing and having considered the oral and written arguments of counsel, the Court
denies the motion as to the lawfulness of the entry into the residence and the search, and denies
Defendant’s request to suppress physical evidence seized as a result of the search. The motion is
granted only to the extent that Defendant’s initial self-incriminating statement to law
enforcement is suppressed, but the motion is denied in all other respects.
The Court held a three-day hearing on the motion on January 18, 19, and 25, 2018, and
the parties were given the opportunity to submit written closing arguments, which they have
done. (Docs. 62 and 63). A hearing was held on Monday, April 16, 2018 for oral argument on
the written closing arguments. In their written closings, the parties tendered what amounted to

Appendix B

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 2 of 40

requested findings of fact by referring to the transcripts from the hearing, and submitted what
amounted to conclusions of law. The Court notes that the facts are largely undisputed although
the parties disagree on the legal significance of those facts (for example, whether Defendant was
in custody for purposes of Miranda), but the Court will also note where the facts are disputed
(for example, whether Defendant gave verbal consent to law enforcement to enter the home).
BACKGROUND
Defendant’s motion seeks suppression of all evidence and statements made by Ethan
derived from the alleged illegal search of his home and effects, and from unlawful seizure and
interrogation.

According to the criminal complaint, on May 31, 2017, law enforcement

responded to a 911 call which came in around 3:00 p.m. from someone who was later identified
as Defendant’s ex-girlfriend, “MC.” MC had found an explosive device (a pressure cooker
bomb) under her bed. A timer was used to turn on a soldering iron that was to heat up and start
the fuse which then was to ignite the pressure cooker bomb. Fortunately the bomb did not
detonate. The Albuquerque Police Department (“APD”) Bomb Squad was inspecting the device
at MC’s home when Special Agent Zachary Rominger (“SA Rominger”) arrived.1 The pressure
cooker held approximately six pounds of black powder, nuts, bolts and a rubbery-like substance
in a plastic bag that was later identified as “homemade napalm.” Law enforcement concluded
that the pressure cooker and its contents were an improvised explosive device (“IED”). SA
Rominger interviewed MC and her mother about MC’s past relationship with Ethan. MC
explained she had dated Ethan for about six months, and after breaking up in June 2016 she
made it clear she wanted no further contact with him, but he continued to try and communicate

1

SA Rominger is an agent with the Federal Bureau of Alcohol, Tobacco and Firearms.

2

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 3 of 40

with her. For a while, the school provided her with an escort to class in an effort to stop Ethan’s
harassment.
After interviewing MC, four law enforcement officers went to Defendant’s home at
around 9:43 p.m. that same day.2 Of the four officers, only APD Detective Larranga had a lapel
camera video and had the good sense to have the device turned on recording events that were
occurring. The Court notes that J. Edgar Hoover died in 1972 so perhaps the time has come for
federal law enforcement agencies such as the FBI and the ATF to follow the lead of other law
enforcement agencies such as the APD and require agents to record most of their encounters with
members of the public.

Recording such encounters assists trial judges in making factual

findings.
The officers did not have a warrant to search Defendant’s house. When agents knocked
on the front door, Ethan and his brother Tyler Guillen (“Tyler”) opened it. Upon entry the
officers conducted a protective sweep of the house, but no evidence was collected at this time.
Defendant contends that the entry was illegal because Ethan did not consent to the entry either
verbally or nonverbally.
Reynaldo Guillen (“Mr. Guillen”), Ethan’s father, returned home about 18 minutes from
the time the agents entered the home and was interviewed by the agents about a pressure cooker
and a soldering iron. Reynaldo said he recently bought a pressure cooker for Ethan and he asked
Ethan where it was. Ethan told Reynaldo that it was at his mother’s house, but a call to the
mother revealed that she did not have it. Reynaldo had several conversations with his ex-wife
Lori Valdez (“Ms. Valdez”) that evening in order to determine whether she had the pressure
cooker. Ms. Valdez said she did not know but would have to look, and at the hearing she
2

The four officers present at Defendant’s home were SA Rominger, ATF SA Wright, FBI Special Agent Bomb
Technician (SABT) Green, FBI SABT Anthony, and APD Detective Larranaga.

3

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 4 of 40

testified that she did not look for the pressure cooker that evening. Tr. at 475. Ethan then
changed his story and said the pressure cooker was at the home of his recently deceased uncle.
Mr. Guillen consented to a search of the residence and signed a search consent form.
Defendant at no time objected to the search. The search did not uncover the soldering iron which
Mr. Guillen said he owned, but in the backyard agents found a white plastic table with large
burn marks on it and a piece of fuse stuck on it.3 Agents found a backpack next to the bed,
which contained white duct tape (which matched the duct tape found on the IED), black duct
tape, latex gloves, scissors, super glue and zip ties.
SA Rominger questioned Ethan at the kitchen table for about 50 minutes, during which
time Ethan denied having any involvement with making the device. SA Rominger then told
Ethan that the evidence indicated that he had made the IED, and Ethan stated, “Yes, I made it.”
At that point, SA Rominger read Defendant his Miranda rights. Ethan acknowledged that he
understood those rights and waived them and agreed to speak with both SA Rominger and SA
Greene. Defendant explained how he constructed the IED, entered MC’s apartment through the
back door of her balcony while MC was out and plugged the IED into a timer set for 1:30 a.m.
Ethan’s post-warning statements were recorded by Det. Larranaga’s lapel camera.

Ethan

described how, after putting the device in place, he then listened to a police scanner and waited
to hear about an explosion. Ethan told SA Rominger that he wanted MC dead and that he did not
care that the explosion could have injured or killed nearby people. The agents followed Ethan
into his room where Ethan showed them his computer and the components he used for building
the IED which were in his backpack, including the white duct tape, the gloves and the super glue.

3

Shortly after the search began, Mr. Guillen was asked about a soldering iron and whether he owned one or
possessed one, and he said that he did. He went with agents into the garage and was unable to find it. Tr. at 61,
341-342.

4

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 5 of 40

The complaint states that officers were unable to locate both a pressure cooker and a
soldering iron which had been purchased by Mr. Guillen, but information about the pressure
cooker and soldering iron was obtained as a result of the agent speaking with Ethan at the house.
In discovery, ATF agents disclosed that these additional items were later obtained from Ethan’s
bedroom:







backpack with contents
desktop tower computer,
laptop computer,
X-Box
J.B. Weld (an epoxy product) from the nightstand, and
A cell phone from Ethan Guillen’s person

Agents also disclosed in discovery that certain items were obtained from the backyard of
the residence, including:







A plastic table (with large burns on its surface),
A tube of caulk
A caulking lid
An empty bottle of isopropyl alcohol
A burned match box and
A burned razor blade
DISCUSSION

The Fourth Amendment requires that searches and seizures be reasonable. City of
Indianapolis v. Edmond, 531 U.S. 32, 37 (2000). It is a “basic principle of Fourth Amendment
law” that searches and seizures inside a home without a warrant are presumptively unreasonable.
Payton v. New York, 445 U.S. 573, 586 (1980). The Fourth Amendment “applies equally to
seizures of persons and to seizures of property,” Payton v. New York, 445 U.S. 573, 585 (1980),
and only prohibits searches and seizures that are unreasonable. City of Indianapolis v. Edmond,
531 U.S. 32, 37 (2000). In Terry v. Ohio, the Supreme Court held that a seizure occurs and the
Fourth Amendment applies “whenever a police officer accosts an individual and restrains his
5

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 6 of 40

freedom to walk away.” 392 U.S. 1, 16 (1968); United States v. Broomfield, 201 F.3d 1270, 1274
(10th Cir. 2000) (a seizure occurs when the police conduct would have communicated to a
reasonable person that the person was not free to decline the officers’ requests or otherwise
terminate the encounter).
As long as “a reasonable person would feel free to disregard the police and go about his
business, the encounter is consensual and no reasonable suspicion is required.” Florida v.
Bostick, 501 U.S. 429, 434 (1991). “[I]n order to determine whether a particular encounter
constitutes a seizure, a court must consider all the circumstances surrounding the encounter to
determine whether the police conduct would have communicated to a reasonable person that the
person was not free to decline the officers' requests or otherwise terminate the encounter.”
Broomfield, 201 F.3d 1270 at 1274; see also United States v. Mendenhall, 446 U.S. 544, 554-55
(1980) (“Examples of circumstances that might indicate a seizure, even where the person did not
attempt to leave, would be the threatening presence of several officers, the display of a weapon
by an officer, some physical touching of the person of the citizen, or the use of language or tone
of voice indicating that compliance with the officer’s request might be compelled.”).
For purposes of this discussion, the Court will refer to the transcripts for the motion
hearing by their page numbers. Volume 1 includes pages 1-202; volume 2 includes pages from
205-471 and volume 3 runs from pages 473-506.4
I.

Entry Into House and Protective Sweep
In the motion to suppress, Defendant argues that his Fourth Amendment rights were

violated when agents physically intruded into the Guillen home because Tyler expressly

4

The three volumes are docketed as Docs. 57, 58 and 59, but the page numbers refer to the actual pages of the
transcript rather than to the page numbers corresponding to the docketed pleading. Where the parties do not take
different positions on the facts, those facts will be stated without reference to the transcript.

6

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 7 of 40

consented to the entry but Ethan did not. Defendant also suggests that any consent that might
have been given was not voluntary because there was a show of force by the presence of four
detectives seeking entry into the house.5
Detective Larranaga captured the moments leading up to the agents’ entry into the house
on his lapel camera (“lapel cam video”), and the video was admitted as an exhibit at the initial
hearing on the motion to suppress. Ex. 1, Part 2. The Court has reviewed this video numerous
times, in preparing for the motion hearing as well as during the hearing.
The parties differ on whether Ethan gave consent for the agents’ entry into the home.
The Government’s position is that Ethan ultimately did give express permission for the entry,
although he initially objected. Both brothers opened the front door and the agents asked if they
could come inside and talk. Tyler agreed, but Ethan asked if the agents had a warrant. Agent
Greene advised him that they did not, and Ethan asked if they could talk outside instead. When
the agents asked again if they could come inside, both brothers appeared to be having some
discussion, most of which was inaudible on the video, and then Ethan stepped aside and said
“Sure” in response to Agent Green’s question, “Are you inviting us in”?
The events surrounding the entry were described consistently by SA Rominger (Tr. at 2830); SA Green (Tr. at 215-216). Neither agent had any doubt that Ethan as well as his brother
Tyler gave consent for the entry; Det. Larranaga (Tr. at 306-07) stated that he could not see
which brother’s lips were moving to say “Sure” but it sounded to him as though Ethan made that
statement. The Court finds the agents’ testimony to be credible. Ethan asserts that he objected to
the entry, but was overruled by his older brother, who shoved Ethan aside to allow the agents to

5

At the hearing, SA Rominger described what was occurring in Det. Larranaga’s lapel cam video: Det. Larranaga
can be seen approaching the Guillen resident from the east side of the street, and what was not visible on the video
was SA Rominger, SA Wright, and two FBI agents parked to the west who also approached the residence from that
direction. Tr. at 25.

7

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 8 of 40

enter the home. Tyler testified at the hearing that he—not Ethan—gave express permission to
law enforcement to enter the house. He stated that he had asked Ethan why he cared whether the
officers came into the house, and Ethan told him that he would “prefer them not to come in” but
that he brushed off his brother’s comments. Tr. at 363.
The Court has viewed the lapel cam footage capturing the agents’ entry into the Guillen
residence several times, and finds this footage crucial to the Court’s determination on this issue.
The discussion between the two brothers was inaudible, but after repeated viewings, it appears
that Ethan said “Sure” to the agents’ second request to come inside, taking a step back while
Tyler stepped off to the side in order to allow the agents to come in. See United States v.
Guerrero, 472 F.3d 784 (10th Cir. 2007) (a defendant's consent must be clear, but it need not be
verbal). While it was difficult to discern whose mouth was moving, Ethan’s posture and body
language was consistent with finding that Ethan did give express permission for the entry
affirmatively, both orally and by his actions in stepping aside. This is consistent with the
officers’ testimony. Defendant’s contention that Tyler shoved Ethan aside is not visible in the
video. The videotape shows that both brothers gave oral consent, and both cleared the way for
the agents to enter. The Fourth Amendment recognizes a valid warrantless entry and search of
premises when police obtain the voluntary consent of an occupant who shares, or is reasonably
believed to share, authority over the area in common with a co-occupant who later objects to the
use of evidence so obtained. Illinois v. Rodriguez, 497 U.S. 177 (1990); United States v. Blunt,
187 F. App'x 821 (10th Cir. 2006) (warrantless entry into drug suspects' residence did not violate
Fourth Amendment, where third party with apparent authority to enter residence invited officer
to accompany her inside).6 In this case, there is no evidence or testimony that Ethan ever

6

U.S. v. Cruz-Mendez, 467 F.3d 1260, 1265 (10th Cir. 2006) (district court did not err finding that entry was lawful
where girlfriend gave consent to enter and invited officers inside after she retrieved identification); see also U.S. v.

8

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 9 of 40

objected to the entry, even after the agents were in the house—except for his initial objection
when he asked the agents if they had a search warrant, which Ethan withdrew when he stated
“Sure.” A lack of objection on Ethan’s part to the officers’ entrance into the house, and later to
the search, indicates consent. See United States v. Espinosa, 782 F.2d 888, 892 (10th Cir.1986)
(failure to object “may be considered an indication that the search was within the scope of the
consent”); United States v. Pena, 143 F.3d 1363, 1368 (10th Cir. 1998) (accord).
The Court also rejects Defendant’s argument that even if Ethan consented to the entry,
his consent was involuntary because of a show of force by the law enforcement agents standing
outside the door. Consent is determined through a totality of the circumstances. United States v.
Dewitt, 946 F.2d 1497, 1500 (10th Cir. 1991). For a consent to be valid: “(1) There must be clear
and positive testimony that consent was unequivocal and specific and freely given; and (2) The
government must prove consent was given without duress or coercion, express or implied.”
United States v. Butler, 966 F.2d 559, 562 (10th Cir. 1992). Factors relevant to whether a consent
was voluntary include: whether officers touch or physically restrain defendant; whether the
officers are in uniform or plain clothes; whether their weapons are displayed; whether there are a
large number of officers; whether the officers use a harsh tone or demeanor; and whether they
have advised the defendant of his or her right to terminate the encounter or refuse consent.
United States v. Zapata, 997 F.2d 751, 756–57 (10th Cir. 1993). An individual also may consent
through physical conduct. “Consent may instead be granted through gestures or other indications
of acquiescence, so long as they are sufficiently comprehensible to a reasonable officer.” United

McKerrell, 491 F.3d 1221, 1227 (10th Cir. 2007) (an occupant who does not wish the search to occur must expressly
object in order to nullify a co-tenant’s express consent) (search context); cmp. Georgia v. Randolph, 547 U.S. 103,
106 (2006) (physically present co-occupant's stated refusal to permit entry renders warrantless search unreasonable
and invalid as to him).

9

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 10 of 40

States v. Guerrero, 472 F.3d 784, 789–90 (10th Cir. 2007). The characteristics of a defendant
may also be taken into account as well. U.S. v. Dozal, 173 F.3d 737, 796 (10th Cir. 1999).
While the number of officers present may be a factor to consider for voluntariness, it is
not the only factor to consider. See, e.g., United States v. Jones, 701 F.3d 1300, 1314 (10th Cir.
2012) (while there were three officers on the scene, the testimony presented indicated that the
officers’ presence was non-threatening and thus under a totality of circumstances, a reasonable
person would feel free to go about one’s business during the encounter). Based on the pleadings
and the evidence and testimony at the hearing, the Court finds no indication that the officers
behaved in a coercive or threatening manner. The agents’ request to enter the home was made
twice, and was done in even tones and without raised voices. There was no menacing insistence
in either of the requests. Most of the agents were in plain-style clothes and weapons were
concealed. Tr. at 37-38. Ethan points to his characteristics as a youth who was allegedly
clinically depressed and taking antidepressant medication, having no prior law enforcement
contacts or juvenile history, and being overruled by his brother Tyler who is physically stronger
and larger. However, the agents would not have either known or seen any of this, and this was
certainly not obvious from the videotape from Det. Larranaga’s lapel cam video.
Therefore, under the totality of the circumstances, it was reasonable for the agents to
believe that consent to enter the home was freely given by both brothers. Accordingly, the entry
did not violate Defendant’s Fourth Amendment rights.
B.

Protective Sweep
In the motion to suppress, Defendant claims that the video shows that only Tyler

consented to the protective sweep conducted by Det. Larranaga and that Ethan at no point
consented to a sweep of the house either verbally or with his behavior. Here again, Ethan did not

10

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 11 of 40

object to the sweep, nor is there any suggestion that the protective sweep was not done on legal
grounds. Also, no evidence was gathered as a result of the sweep. There was no testimony or
evidence rebutting SA Rominger’s explanation for the security sweep, which was done
immediately after the agents entered the Guillen residence. Tr. at 30 (SA Rominger stating that
agents conducted protective sweep in order to ensure that “nobody is going to come up on you
while you’re doing an interview or while you’re talking.”). See U.S. v. Owens, 782 F.2d 146, 151
(10th Cir.1986) (a protective sweep is “appropriate only where officers reasonably perceive an
immediate danger to their safety”). In this case, law enforcement had a legitimate interest in
ensuring that the officers’ lives would not be at risk if there were other bombs in the house, in
light of the information that had obtained from the interview with the victim. Therefore, the
agents did not violate Ethan’s Fourth Amendment rights when they conducted a protective
sweep.
II.

Search of the Residence and Bedroom
Defendant contends that his Fourth Amendment rights were violated when law

enforcement agents conducted an unreasonable search of his home and its curtilage, his
bedroom, and his backpack. He contends that he had an expectation of privacy in those places
and things.
Law enforcement officers may search a home without a warrant with the voluntary
consent of the homeowner. U.S. v. Pikyavit, 527 F.3d 1126, 1130 (10th Cir. 2008). Whether
voluntary consent was given is a question of fact determined by the totality of the circumstances.
Id. The government must “proffer clear and positive testimony that consent was unequivocal

11

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 12 of 40

and specific and freely given . . . and must prove that this consent was given without implied or
express duress or coercion.” U.S. v. Zubia Melendez, 263 F.3d 1155, 1162 (10th Cir. 2001).7
The facts relevant to the search issue are undisputed. Upon entry into the house, the agents were
informed that Mr. Guillen, a musician, was in Santa Fe. While the security sweep was being
conducted, SA Rominger and SA Green asked Ethan if they could talk at the kitchen table and
other agents were talking with Tyler in the back hallway. Around 10:00 p.m., Mr. Guillen
returned home. Mr. Guillen was the owner of the home, and he provided oral and written
consent to the search of the residence. Defendant does not expressly challenge the validity of
Mr. Guillen’s consent relative to his signing the consent form. At the hearing, Mr. Guillen
testified that he did not understand he had a right to refuse to consent to the search of the house.
However, there is no evidence that his consent was not voluntary. First, police do not have to
inform an individual of his right to refuse to consent to a search. U.S. v. Harrison, 639 F.3d 1273
(10th Cir. 2011). Whether an individual was aware that he could refuse to consent is but one
factor considered in the totality of the circumstances analysis of whether the search was
voluntary. Id. Government actions are coercive when they imply an individual has no right to
refuse consent to search. Id.;see United States v. Collins, 683 F.3d 697, 702 (6th Cir. 2012).
Second, the consent form presented to Mr. Guillen in fact included language informing he that he
did have the right to refuse consent and that he could consult with an attorney before or during

7

For some reason not made clear by defense counsel, Defendant offers two legal theories for the allegedly illegal
search: under the “trespass” doctrine and under the Katz doctrine, but the analysis is virtually the same under both.
The traditional trespass-based analysis considers whether a physical trespass occurred, relying on the baseline
established in the text of the Fourth Amendment which protects searches of persons, houses, papers and effects.
However, it has been understood for a long while that Fourth Amendment violations are not limited to physical
trespass. In Katz v. United States, the Supreme Court held that property rights “are not the sole measure of Fourth
Amendment violations” and that the protection extends not only to the seizure of tangible items but also to the
recording of oral statements. 389 U.S. 347 (1967); see also Florida v. Jardines, 569 U.S. 1, 8 (2013) (holding that
use of a canine was a trespassory invasion of the curtilage which constituted a “search” for Fourth Amendment
purposes). Thus, Katz would envision Fourth Amendment violations to include the broader concept of Fourth
Amendment violations.

12

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 13 of 40

the search. Mr. Guillen stated that he felt “rushed,” but admitted that he had a full opportunity
to review the form and knew what he was signing. Tr. at 454-55.
A.

Search of House

Defendant contends that Mr. Guillen did not have authority to allow a search of the
house, particularly of Ethan’s bedroom, in which he had an expectation of privacy.
The Fourth Amendment permits a warrantless search when one occupant sharing the
home with other parties consents. United States v. Matlock, 415 U.S. at 170; Fernandez v.
California, 134 S.Ct. 1126, 1129 (2014) (“police officers may search jointly occupied premises
if one of the occupants consents”). A third party has authority to consent to a search of property
if that third party has either (1) mutual use of the property by virtue of joint access, or (2) control
for most purposes over it. U.S. v. Rith, 164 F.3d 1323 (10th Cir. 1999). However, that same
search is unconstitutional when another occupant of the home is present and expressly refuses
consent. Georgia v. Randolph, 547 U.S. 103 (2006); U.S. v. McKerrell, 491 F.3d 1221 (10th Cir.
2007) (no Fourth Amendment violation where defendant did not expressly object to a search of
the house while he was on the scene, and there was no showing that the officers removed the
defendant from the scene to avoid his possible objection to the search); United States v.
McKerrell, 491 F.3d 1221, 1227 (10th Cir. 2007) (An occupant who does not wish the search to
occur must expressly object in order to nullify a co-tenant’s express consent).
The analysis for actual or apparent authority is similar and the Government bears the
initial “burden of proving by a preponderance of the evidence that the consenter had mutual use
of the property searched by virtue of [his] joint access to it, or control for most purposes over it.”
United States v. Rith, 164 F.3d 1323, 1329 (10th Cir. 1999)). As part of this fact-intensive
inquiry, there is a “normative inquiry” dependent on whether the relationship between the

13

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 14 of 40

defendant and the third party “is the type which creates a presumption of control for most
purposes over the property by the third party.” This presumption may be rebutted by facts
showing an agreement or understanding between the defendant and the third party that the latter
must have permission to enter the defendant's room. Rith, 164 F.3d at 1331. However, if the
relationship creates a presumption of control and is unrebutted, then the third party has authority
to consent to a search of the property. Id.at 1330 (while there were insufficient factual findings
that defendant’s parents had joint access to his bedroom, and no findings that the parents visited
with defendant in his room, cleaned his room, or otherwise went into Rith's room uninvited,
there was also a presumption that defendant was living with his parents and was not paying rent,
and that this presumption was unrebutted).
The Government contends that Mr. Guillen had apparent authority to consent for the
search of his home, starting out with a presumption of control that exists when a child lives with
a parent. In such a situation, the parent generally has control over the property and therefore
actual authority to consent to a search of the entire home. United States v. Romero, 749 F.3d 900,
905–06 (10th Cir. 2014). Ethan lived with his father, and so this relationship establishes the
presumption that Mr. Guillen had actual authority to consent to a search of the home and its
curtilage. See Rith, 164 F.3d at 1331 (control test is satisfied on a showing that a child lives with
parents even when the child is an adult). The Government argues that it was therefore reasonable
for the officers to rely on the presumption that Mr. Guillen had joint access or control over the
entire home, including Ethan’s bedroom. Romero, 749 F.3d 900, 907 (“when officers know facts
creating a presumption of authority to consent, the officers need not make further inquiry into
authority unless they learn additional facts (such as that the stepson pays rent) that may
undermine the presumption.”). In this case, the officers would not have recognized that the

14

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 15 of 40

bedroom Ethan occupied was the master bedroom which a parent typically occupies; and finally,
the bedroom was open at the time the agents entered the premises. The facts in this case support
the existence of a presumption that Mr. Guillen had authority and control for most purposes over
the residence:








Neither Defendant nor Tyler paid rent to live at the father’s house, despite the fact that
both brothers were over 18 years old.
Ethan occupied the master bedroom in the house, and it is reasonable to assume that Mr.
Guillen, and not Ethan, would have occupied that bedroom. No one told SA Rominger
that the master bedroom was used by Ethan until after the search had been ongoing. Mr.
Guillen did not advise the agents about this arrangement, either.
Defendant’s father stored items in a closet in the master bedroom; Tyler used a weight
bench that was in the master bedroom as well.
The master bedroom also contained items associated with Mr. Guillen’s profession as a
musician, such as a microphone and stand. Tr. at 41.
None of the three Guillens limited where law enforcement could look.
All of the bedrooms in the house, except for the grandmother’s bedroom, were similarly
all very messy and had big screen TV’s. There was no indication that one room might
have been used by one of the sons as opposed to the father.
Defendant attempts to rebut this presumption by pointing out that Mr. Guillen lacked

joint access over Ethan’s bedroom because he did not visit with Ethan in his room, did not clean
his room and did not otherwise go in his room uninvited. There was testimony that several years
ago Mr. Guillen had agreed to install a door with a locking knob on the master bedroom to
ensure Ethan’s privacy. Tyler described Ethan as being a private person who was in the habit of
locking his bedroom door, and stated that Ethan used two types of door lockers that would block
the door from being opened. Tyler recalled that Mr. Guillen would ask Ethan’s permission
before going into the master bedroom. Tr. at 354-358. Mr. Guillen testified that Ethan’s doorlocking created friction between them and in 2015 or 2016, he came to a compromise with Ethan
by allowing Ethan to use other door locks with the understanding that if he knocked on the door,

15

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 16 of 40

Ethan would come out “without any squabble.” Tyler was aware of this agreement. Tr. at 416417.
Ethan’s mother, Ms. Valdez, testified at the hearing. She said that when Ethan was
staying with her, he was in his bedroom so often that she had to make a rule that he had to eat in
his room and that other than leaving his room for necessities and to go to school, Ethan did not
leave his bedroom. Since her divorce from Ethan’s father in 2005, the parents split custody of
Ethan and Tyler when they were ages 6 and 8 and each parent made special arrangements to
respect Ethan’s privacy in his bedroom when he was living with them. When Ethan went to live
with his father, Mr. Guillen allowed Ethan to have the master bedroom in the house. Ms. Valdez
corroborated the arrangement Ethan had with his father at the Guillen residence where he was
currently living. Tr. at 484-487.
The Court assumes that testimony of Mr. Guillen, Tyler and Ms. Valdez to be credible,
but this testimony is insufficient to rebut the presumption of control which the Government has
established belonged to Mr. Guillen. What is critical here is that even if Ethan had an expectation
of privacy in the master bedroom, the agents conducting the search had no reason to assume that
Ethan, rather than his father, was using the master bedroom, nor did they have any way of
knowing about the agreement Ethan had with his family, particularly his father, regarding
maintaining that privacy. In U.S. v. Romero, 743 F.Supp.2d 1282 (D.N.M. 2010), aff’d, 749 F.3d
900 (10th Cir. 2014), the court found that defendant’s stepfather lacked actual authority to
consent to a search of defendant’s bedroom, where there was a locking mechanism on bedroom
door and the stepfather never went into that bedroom, but the court also found that the stepfather
had apparent authority to consent to the search because agents knew that stepfather was an
occupant and the likely owner of the house and that defendant might also reside there, and the

16

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 17 of 40

agents were also unaware that the bedroom door had a locking mechanism. Here, while Mr.
Guillen consented to the search of the house, he never informed law enforcement about a special
agreement he had with Ethan regarding access to the bedroom, nor did he limit the physical
search of the bedroom in any way.
In this case, then, it seems clear that Mr. Guillen had at least apparent authority to
consent to the search of the residence because he had control over the house for most purposes,
and thus the agents reasonably assumed that Mr. Guillen had this authority. See Illinois v.
Rodriguez, 497 U.S. 177 (1990) (holding that Fourth Amendment is not violated when officers
enter without a warrant if they reasonably, albeit erroneously, believe that the third party has
authority to consent to the entry). First, Ethan may have kept his bedroom locked when he was
not in the room, but on that night of the search, Ethan and his brother were together in the master
bedroom when agents arrived and they left the door of the room wide open. Second, because
Mr. Guillen used the closet in that bedroom to store seasonal clothing and professional musical
equipment, it would appear to the agents as though an adult was using the master bedroom—
which itself was a reasonable presumption for agents to make. Third, Ethan did not object to the
search at any time. See U.S. v. Pena, 920 F.2d 1509, 1515 (10th Cir. 1990) (holding that a
defendant’s failure to object is a good indicator that consent existed); United States v. Guerrero,
472 F.3d 784, 790 (10th Cir. 2007) (failure to object during search, while not dispositive, is often
a good indicator that consent existed). As the Government points out, even if Ethan shared
common authority with his father to consent to a search of the home, such common authority to
consent does not require both parties to consent in order for the search to be valid. Id. at 133; see
also U.S. v. McKerrell, 491 F.3d 1221, 1227 (10th Cir. 2007) (an occupant who does not wish

17

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 18 of 40

the search to occur must expressly object in order to nullify a co-tenant’s express consent)
(search context).
Having found that Mr. Guillen had apparent authority to consent to the search of the
house, including the master bedroom which Ethan occupied, there is no need to address whether
he also had actual authority. See, e.g., Rith, 164 F.3d at 1331, n.5 (finding it unnecessary to
determine whether Rith’s parents had apparent authority to consent to the search of his bedroom
because they had actual authority). Therefore, the agents did not violate Ethan’s Fourth
Amendment rights in carrying out the search of the Guillen residence.
III.

The Miranda Issue-Relevant Law
Defendant argues that his Fifth Amendment rights were violated because law

enforcement officers failed to advise him of his rights under Miranda v. Arizona, 384 U.S. at
136, 477-78 (1966) when he was a suspect, in their custody and was subject to their
interrogation. Specifically, Defendant claims that he made incriminating statements to the agents
before being advised of his Miranda rights—midstream in his confession.
Ethan made his initial self-incriminating statement prior to his being advised of his rights.
However, even assuming a procedural Fifth Amendment violation, wholesale suppression of
Ethan’s statements to law enforcement is not constitutionally required.

The United States

Supreme Court has recognized that “custodial statements made prior to delivery of Miranda
warnings do not necessitate exclusion of any subsequent confession.” Oregon v. Elstad, 470
U.S. 298, 318 (1985); U.S. v. Pettigrew, 468 F.3d 626, 635 (10th Cir. 2006) (citing Elstad at
316); Rith,164 F.3d at 1332-1333.
In Elstad, the Supreme Court held that a suspect who has once responded to unwarned
yet uncoercive questioning “is not thereby disabled from waiving his rights and confessing after

18

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 19 of 40

he has been given the requisite Miranda warnings.” 470 U.S. at 318. In that case, police officers
went to the defendant's home and questioned him about a burglary without first reading him the
Miranda warnings. Id. at 301. The defendant admitted being present at the burglary, at which
point the officers took him to the police station. Id. An hour after arriving at the station, the
officers informed the defendant of his Miranda rights. Id. The defendant then waived those rights
and gave a full statement detailing his role in the crime. Id. at 301–02. The court held that
“[t]hough Miranda requires that the unwarned admission must be suppressed, the admissibility
of any subsequent statement should turn in these circumstances solely on whether it is knowingly
and voluntarily made.” Id. at 309. The court rejected the theory that the initial, unwarned
statement creates a “lingering compulsion” based on “the psychological impact of the suspect's
conviction that he has let the cat out of the bag and, in so doing, has sealed his own fate.” Id. at
311. Instead, the Supreme Court concluded that the subsequent administration of Miranda
warnings after a voluntary but unwarned custodial confession will “remove the conditions that
precluded admission of the earlier statement.” 470 U.S. at 314. In other words, statements made
after a voluntary Miranda waiver could be admissible as long as the pre-Miranda statements
were also uncoerced. Elstad, 470 U.S. at 318.
The Supreme Court revisited this issue in Missouri v. Seibert, 542 U.S. 600 (2004) which
concluded that Miranda warnings given mid-interrogation, after defendant gave an unwarned
confession, were ineffective, and thus the confession repeated after warnings were given was
inadmissible at trial. Missouri v. Seibert, 542 U.S. 600 (2004). In Seibert, the police were
investigating a murder by fire. Patrice Seibert feared charges of neglect when her son, afflicted
with cerebral palsy, died in his sleep. She was present when two of her sons and their friends
discussed burning her family's mobile home to conceal the circumstances of her son’s death.

19

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 20 of 40

Donald, an unrelated mentally ill 18–year–old living with the family, was left to die in the fire in
order to avoid the appearance that Seibert’s son had been unattended. Officers arrested Seibert
at 3:00 a.m. Officers took Seibert to the police station where she was left alone in an interview
room for 15-20 minutes. Id. at 604-605. An officer then questioned her for 30-40 minutes, while
squeezing her arm and repeating “Donald [the victim] was also to die in his sleep.” Id. Seibert
finally admitted her crime. She was then given a 20-minute coffee and cigarette break. Then, the
officer turned on a tape recorder, advised Seibert of her rights, and obtained a signed waiver of
rights from her. He then resumed the questioning and confronted her with her pre-warning
statements. Seibert then made incriminating statements. Seibert sought to exclude both her prewarning and post-warning statements. At the suppression hearing, the officer testified that he
made a conscious decision to withhold Miranda warnings, using a technique that he had been
taught- question first, then give the Miranda warnings, and then repeat the question until he
receives the answer he had already been given. Id. at 605-606. The Supreme Court determined
that this police strategy was “adapted to undermine the Miranda warnings,” and held that
Seibert’s post-warning statements were inadmissible. Id. at 616-617.
Defendant urges this Court to apply Seibert here, suppressing both the pre-warning and
post-warning statements made by Ethan. The problem in trying to apply Seibert to any set of
facts is that, as the Tenth Circuit has noted more than once, determining the actual holding in
Seibert “is not easy in light of the fragmented nature of the opinion.”

United States v.

Carrizales-Toledo, 454 F.3d 1142, 1151 (10th Cir. 2006); see also U.S. v. Sanchez-Gallegos, 412
F. App'x 58, 72 (10th Cir. 2011). This is because none of the opinions by Justices in Seibert
received a majority vote of five Justices. Justice Kennedy, for example, concluded that the
admissibility of post-warning statements “should continue to be governed by the principles of

20

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 21 of 40

[Elstad]. 542 U.S. at 622. However, Seibert does have a plurality opinion which was joined by
four of the Justices, holding that “[t]he threshold issue when interrogators question first and warn
later is . . . whether it would be reasonable to find that in these circumstances the warnings could
function ‘effectively’ as Miranda requires.” Id. at 611–12.
The plurality in Seibert set forth five “relevant facts that bear on whether Miranda
warnings delivered midstream could be effective”: (1) the completeness and detail of the
questions and answers in the first round of interrogation, (2) the overlapping content of the two
statements, (3) the timing and setting of the first and the second, (4) the continuity of police
personnel, and (5) the degree to which the interrogator's questions treated the second round as
continuous with the first. 542 U.S. at 615.
The Tenth Circuit has generally applied both the plurality’s five-factor test in Seibert as
well as Elstad’s voluntariness inquiry (contained also in Justice Kennedy’s concurrence in
Seibert) when considering the issue of the admissibility of statements made following unwarned
self-incriminating statements. In other words, Seibert has not replaced Elstad, nor has Elstad
been overruled by the Supreme Court. See, e.g., United States v. Pettigrew, 468 F.3d 626 (10th
Cir. 2006) (finding that “Elstad’s underpinnnings were controlling); U.S. v. Crip, 371 F.App’x
925, 930 (10th Cir. 2010) (concluding that defendant’s self-incriminating statements were
admissible under either the Seibert plurality opinion, Justice Kennedy’s concurring opinion in
Seibert or the voluntariness test adopted by Elstad); U.S. v. Carrizales-Toledo, 454 F.3d 1142
(10th Cir. 2006) (finding that defendant’s statements would be admissible under the tests
proposed by both the plurality and the concurring opinion supporting Elstad’s analysis).
The best approach to determining the admissibility of the pre-warning and post-warning
statements therefore appears to be a two-part inquiry. While Seibert’s holding is not clear, as

21

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 22 of 40

discussed above, the plurality’s five-factor test may be considered along with the Elstad analysis
for voluntariness.8 First, however, the Court must determine whether Ethan was in custody prior
to making the admission that he built the IED. If he was not in custody, then the selfincriminating statement is admissible as long as it was uncoerced, since the Fifth Amendment
would not apply if Ethan was not in custody. See United States v. Rith, 164 F.3d 1323 (10th Cir.
1999) (defendant was not in custody when he made first inculpatory statement, precluding need
to provide Miranda warnings); United States v. Carloss, 818 F.3d 988, 992 (10th Cir. 2016). If,
however, Ethan was in custody at the time he made the admission, then the agents committed a
procedural Miranda violation, and that pre-warning statement would not be admissible. See
Elstad, 470 U.S. at 309 (noting that Miranda requires that the unwarned admission must be
suppressed). However, as explained above, under Elstad, statements made after a voluntary
Miranda waiver could be admissible as long as the pre-Miranda statements were also uncoerced.
Elstad, 470 U.S. at 318 (statements made after a voluntary Miranda waiver could be admissible
as long as the pre-Miranda statements were also uncoerced); U.S. v. Carrizales-Toledo, 454 F.3d
at 1149 (“[A]bsent deliberately coercive or improper tactics in obtaining the initial statement,”
the Court found that “subsequent administration of Miranda warnings . . . ordinarily should
suffice to remove the conditions that precluded admission of the earlier statement.”) (quoting
Elstad, 470 U.S. at 314).

8

Without any further guidance from the Tenth Circuit, the Court would have to assume that if Seibert factors apply
where it appears that the failure to read Ethan the Miranda warning was a strategy intended to undermine his
constitutional rights, then Ethan’s subsequent confession may not be admitted, whether or not the initial statements
were voluntary. Of course, if both the Seibert factors and the voluntariness inquiry come to the same result, then
this situation is avoided.
Also, in the Carrizales-Toledo case, defendant’s pre-warning statements would come even if he was in custody
prior to being advised of his rights because of the “public safety” exception which allows a delay in issuing Miranda
warnings. 454 F.3d at 1146.

22

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 23 of 40

The overriding concern in the analysis is whether the Miranda warning was sufficient to
inform Ethan that he could choose whether to continue his confession.
IV.

Analysis of the Miranda Issue – Custodial Interrogation
Custodial interrogation is defined as “questioning initiated by law enforcement officers

after a person has been taken into custody or otherwise deprived of his freedom of action in any
significant way.” Calif. v. Beheler, 463 U.S. 11221, 1124 (1983);Yarborough v. Alvarado, 541
U.S. 652, 661 (2004). Under Miranda v. Arizona, 384 U.S. 436 (1966), before any custodial
interrogation, a defendant must be warned that he has the right to remain silent, that any
statement he does make may be used as evidence against him, that he has the right to the
presence of an attorney, and that if he cannot afford an attorney, one will be provided for him.
U.S. v. Erekson, 70 F.3d 1153, 1156 n.1 (10th Cir. 1995). Two requirements must be met before
Miranda is applicable; the suspect must be “in custody,” and the questioning must meet the legal
definition of “interrogation.” United States v. Perdue, 8 F.3d 1455, 1463 (10th Cir.1993); United
States v. Bennett, 329 F.3d 769, 775 (10th Cir. 2003) (defendant not in custody where his
freedom of action was not “curtailed to a degree associated with formal arrest” during
questioning.). Further, Miranda’s “in custody” requirement” is measured objectively, the proper
inquiry being whether a reasonable person in the suspect’s position would have understood his
situation as the functional equivalent of formal arrest. Berkemer v. McCarty, 468 U.S. 420, 442
(1984)) (quotation omitted); U.S. v. Jones, 523 F.3d 1235, 1239 (10th Cir. 2008) (whether a
person is in custody for Miranda purposes is an objective determination). This means that
whether agents believe an individual is in custody is not dispositive, nor is the defendant’s
subjective belief. U.S. v. Bautista, 145 F.3d 1140 (10th Cir. 1998).

23

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 24 of 40

Ethan contends that he was in custody during the questioning by agents at the Guillen
residence; that agents used interrogation tactics designed to undermine the effectiveness of
Miranda warnings; and that Ethan could not have made a voluntary, knowing and intelligent
waiver of his Miranda rights. Smith v. Mullin 379 F.3d 919, 932 (10th Cir. 2004) (in order to be
effective, a waiver must be made “voluntarily, knowingly, and intelligently”) (citing Miranda v.
Arizona, 384 U.S. 436, 444 (1966). For a waiver to be knowing and intelligent, it “must have
been made with a full awareness both of the nature of the right being abandoned and the
consequences of the decision to abandon it.” The Government’s position is that Ethan was not in
custody until after he initially admitted to making the IED, and because he was not in custody,
the Seibert factors do not apply.
A.

“Interrogation”

Police questioning constitutes interrogation, for the purposes of Miranda, when police
ask questions or engage in actions designed to elicit an incriminating response from a person, or
when police should know their questions or actions are reasonably likely to elicit such a
response. Rhode Island v. Innis, 446 U.S. 291, 300–01 (1980). Such questions and actions are
the “functional equivalent” of expressly questioning a person about their criminal liability. Id. at
300–01. An incriminating response is any response, whether inculpatory or exculpatory, that the
prosecution may seek to introduce at trial. Id. at 302 n. 5. Custodial interrogation is also defined
as “questioning initiated by law enforcement officers after a person has been taken into custody
or otherwise deprived of his freedom of action in any significant way.” Calif. v. Beheler, 463
U.S. 1121, 1124 (1983); Yarborough v. Alvarado, 541 U.S. 652, 661 (2004).
The evidence and testimony presented at the hearing are as follows—and these are not
disputed: After the agents’ entry into the house, SA Rominger went to sit with SA Greene and

24

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 25 of 40

Ethan at the kitchen table while the other agents spoke with Tyler in one of the hallways prior to
Mr. Guillen’s arrival at the house. Ethan denied being over at the victim’s house or that he had
anything to do with making the device. Ethan continued to deny involvement with making the
IED until SA Rominger referred to certain objects that were relevant to the search efforts,
explaining what was missing and what was found, namely, the missing pressure cooker, the
burned table found outside the house in the back, the missing soldering iron and the white tape.
Tr. at 119, 120, 145. SA Rominger stated that he “pushed him,” using interrogation tactics in
which he was trained, telling Ethan that the agents knew he had purchased a pressure cooker
which was gone, that he had used his dad’s soldering iron that was missing and white tape was
found in his backpack. Tr. at 148-149. SA Rominger stated that after being confronted with
this evidence and information, Ethan hesitated, took a breath, and told SA Rominger that he had
made the device. Tr. at 148-150.
After Ethan admitted to creating the device, SA Rominger immediately advised him of
his Miranda rights. Tr. At 69. SA Rominger acknowledged in his testimony that because Ethan
had just admitted to committing a crime, he was no longer free to leave. After the Miranda
rights were read to Ethan, a more extended detailed interrogation was conducted. Tr. at 158-159,
250-251. SA Rominger noted that Ethan’s demeanor before and after he was given his Miranda
rights “never changed” and that Ethan was calm and confident in his answers. Tr. at 70. He
noticed that he initially seemed nervous but then settled in after a few questions, and was
surprised how even-keeled Ethan was the entire time. Id.; Tr. at 52, 114-115, 118, 281-282.
One of the video exhibits shows Ethan getting up from the table and sending some text messages
while the agents were talking among themselves. Tr. at 60; Ex. 2, APD Lapel Video, Pt. 4).

25

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 26 of 40

After advising Ethan of his Miranda rights, SA Rominger asked Ethan to describe the
device and how he got the device into his ex-girlfriend’s house. Ethan provided this information
that was “coming like a flood” for about a half hour. Tr. at 161. Ethan also stated that his
intention was to kill the victim. Tr. at 343-344; Ex. 2 (APD lapel video, Pt. 6). He then
consented to a search of his room and his computers. In the bedroom, Ethan showed the agents a
backpack in his bedroom while walking the agents through the room, and he did not object to the
backpack being taken. Tr. at 84.
The fact-specific analysis is a close one, but the Court finds that SA Rominger’s
questioning of Ethan at the time Ethan made his initial self-incriminating admission constitutes
interrogation under Miranda. SA Rominger stated that he considered Ethan a person of interest
and did not feel he was interrogating Ethan until after Ethan first admitted to making the device,
and so did not consider advising Ethan of his Miranda rights before that point. However, as more
information and evidence was discovered as a result of the search and the interviews with
Ethan’s family, SA Rominger pushed on, despite Ethan’s repeated denials of involvement. At
this point, when SA Rominger confronted Ethan with this collective information and evidence,
both missing and located, the purpose of the questioning went beyond mere eliciting of
information, to where the purpose of the questioning was to elicit an incriminating statement.
Questions that are designed to elicit an incriminating response from a purpose are the “functional
equivalent” of expressly questioning a person about their criminal liability, and Ethan’s
admission was exactly the kind of response that the prosecution would seek to introduce at trial
in this case. Rhode Island v. Innis, 446 U.S. at 300–01 (describing “interrogation”).
Therefore, the Court finds that Ethan was being “interrogated” for purposes of Miranda
when he made the initial self-incriminating admission.

26

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 27 of 40

B.

“Custody”

The determination of “custody,” from an examination of the totality of the circumstances,
is necessarily fact intensive.” United States v. Jones, 523 F.3d 1235, 1240 (10th Cir. 2008); U.S.
v. Griffin, 7 F.3d 1512, 1518 (10th Cir. 1993). The analysis avoids hard-line rules and is guided
by several non-exhaustive factors, such as: (1) the extent to which the suspect is made aware that
he or she is free to refrain from answering questions or to end the interview at will; (2) “the
nature of questioning,” which includes considering whether the questioning was prolonged and
accusatory, and whether the questioning took place in a police-dominated atmosphere.
As an initial matter, the fact that Ethan was not specifically advised that he was at liberty
to decline to answer questions or was free to leave is a “significant indication of a custodial
detention.” Griffin, 7 F.3d at 1518; U.S. v. Zarr, 790 F.3d 1036, 1046 (10th Cir. 2015 (one factor
to consider when determining whether an individual is in custody is whether the suspect was
aware that he could refrain from answering questions or end the interview at will. However, this
factor is not dispositive. See U.S. v. Rith, 164 F.3d 1323, 1333 (10th Cir. 1999) (“That Rith was
not advised of his constitutional right is not at all dispositive and is but one factor to consider
among others. The totality of the circumstances leads to the conclusion that all of Rith's
incriminating statements were voluntary.”)
The length of interrogation was not prolonged; SA Rominger interrogated Ethan for 50 to
60 minutes before Ethan admitted that he made the device.9 There were no raised voices or
yelling and the interactions between the agents and Ethan appeared to be at least civil. See Ex. 2,

9

This time span was also confirmed at the hearing at which the parties presented closings, based on their
supplemental briefs. Agents were at the house for a total of less than two and a half hours, arriving around 9:45 p.m.
and all units having cleared the Guillen residence by 12:15 a.m. Govt’s Ex. 4 (time line).

27

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 28 of 40

APD lapel video Pt. 4 (SA Greene asking Ethan to go and sit at the table after Ethan admitted to
making the destructive device); see also Tr. at 61.
The Government points out that Ethan’s freedom of movement was not curtailed. He
was allowed to take breaks and was able to move about the general area. As shown in one of the
video exhibits, he was allowed to get up from the table during the questioning and to get a drink
of water from the refrigerator and got up to the bathroom. Tr. at 39-40; 131. He was free to
change his location during the discussions with SA Rominger, moving from the table to the
couch, and to move about within those rooms. Tr. at 61. When Ethan admitted to making the
bomb, he was on the couch. SA Greene came up behind the couch then and said “Ethan, let’s go
and sit at the table.” Tr. at 143-144. SA Rominger testified that Ethan could have stayed on the
couch during this interrogation if he wished. Tr. at 149-151.
SA Rominger testified that at the time law enforcement knew about the missing pressure
cooker and soldering iron, and they had found the burnt table, he did not consider Ethan to be in
custody, and that he was free to leave because he realized that the responses elicited from Ethan
were “getting pretty close to probable cause at that point.” Tr. at 66. He also stated that if Ethan
had asked them to leave, the agents would have left, and Ethan had asked for the interview to
stop, the agents would have stopped asking questions. Tr. at 47, 69. However, the Court is not
convinced that SA Rominger and Greene would have stopped the interview and/or left the
residence had Ethan requested either. SA Rominger intimated that he had every intention of
continuing the interrogation once the agents began to confront Ethan with the mounting evidence
and the information the agents had collected from the interviews of Ethan’s family members:
Q.
And isn’t one form of confrontation of a suspect to continue to question that
suspect after even repeated denials? That’s done, isn’t it?
A.

Correct.
28

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 29 of 40

Q.

It’s a pretty fundamental investigation technique; right?

A.

Right.

Q.

And you weren’t leaving?

A.

We were still talking to him, correct.

Tr. at 121-122: 19-2.
It was at this point that the questioning became a custodial interrogation. The Court finds
considerable guidance in a Tenth Circuit case where the facts are not dissimilar and where the
Tenth Circuit found that the defendant was not in custody for Miranda purposes. In U.S. v. Rith
(discussed above in the context of the search), two police officers were asking the 18 year-old
defendant questions about whether he had hidden guns in the house, as his father had suspected.
164 F.3d 1323, 1329 (10th Cir. 1999). Rith’s father had asked the officers to check the family
home to ascertain if the guns that his son possessed were stolen. On consensual entry into the
house, one officer spoke with Rith in the kitchen, told him that they had permission to be in the
house and that they knew he had brought guns into the house, but Rith told the officers that he
had only one gun, and it was in his bedroom. The officers searched Rith’s bedroom and found a
loaded shotgun. One of the officers returned to the kitchen and confronted Rith with the gun.
Rith knew that it was illegal to possess a sawed-off shotgun and that the guns were probably
stolen by the person who had given them to him. Another officer, who had found another gun in
the garbage can outside, returned to the kitchen and read Rith his Miranda rights.

Rith

confirmed that he understood his rights and repeated that he knew that it was illegal to possess a
sawed-off shotgun and that the guns were probably stolen. He was then arrested for possession of
stolen property and illegal weapons. Id. at 1327.

29

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 30 of 40

Rith moved to suppress his pre-warning and post-warning statements. The Tenth Circuit
agreed with the district court that Rith was not in police custody until the point at which he was
confronted with the illegal shotgun. Like Rith, Ethan was questioned while at home with five
officers present; the officers had authority to be there and the officers’ questions were not
harassing or especially prolonged. In both situations, the officers did not draw their weapons,
handcuff or otherwise impose physical restraints; Ethan was not physically restrained until he
was handcuffed and formally arrested.
The Tenth Circuit found that the point of no return for purposes of custody for Rith was
the confrontation with the shotgun.

164 F.3d at 1332 (“. . . under the totality of the

circumstances, Rith was not in police custody until the point at which he was confronted with the
illegal shotgun”). Similarly, although Ethan was not in custody for purposes of Miranda during
SA Rominger’s initial questioning, the Court finds that Ethan’s status changed when the agent
continued to press Ethan despite his repeated denials, and then confronted him with the
information and evidence that had been collected during the search.

The purpose of the

questioning at that point was to elicit incriminating responses—not simply to obtain information.
Also at that point, a reasonable individual in Ethan’s situation, would have not felt free to walk
out the door or end the interrogation, and thus Ethan was in custody when he told SA Rominger
that he had made the device.
V.

The Miranda Issue – Voluntariness of Initial Statement and Waiver
Because Ethan was in custody when he admitted building the device to SA Rominger,

Miranda’s Fifth Amendment procedural safeguards were triggered and the unwarned selfincriminating statement must be suppressed. See Seibert, 542 U.S. at 600 (referring to
“voluntariness standards central to the Fifth Amendment and reiterated in Elstad). However, as

30

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 31 of 40

explained above, under Elstad, statements made after a voluntary Miranda waiver could be
admissible as long as the pre-Miranda statements were also uncoerced. Elstad, 470 U.S. at 318
(“Though Miranda requires that the unwarned admission must be suppressed, the admissibility
of any subsequent statement should turn in these circumstances solely on whether it is knowingly
and voluntarily made.”).
A.

Voluntariness

Voluntary cooperation occurs when a defendant’s statement is the product of his own free
and independent will. See United States v. Chalan, 812 F.2d 1302, 1306-1307 (10th Cir. 1987).
A statement is freely given when there is no physical or mental pressure, or threats or pressure
used to coerce the defendant into giving a statement, based on a totality of the circumstances,
looking both at the characteristics of the defendant and the details of the interrogation. See
Schneckloth v. Bustamonte, 412 U.S. 218, 226 (1973). The essence of voluntariness is whether
the government obtained the statements by physical or psychological coercion such that the
defendant’s will was overcome. See Miller v. Fenton, 474 U.S. 104, 116-117 (1985). Five factors
are considered: “(1) the age, intelligence, and education of the defendant; (2) the length of [any]
detention; (3) the length and nature of the questioning; (4) whether the defendant was advised of
[his or] her constitutional rights; and (5) whether the defendant was subjected to physical
punishment.” U.S. v. Glover, 104 F.3d 1570, 1580 (10th Cir. 1997); Rith, 164 F.3d at 1333.
Here again, the facts in the Rith case are analogous to this case. Ethan’s detention and
interrogation lasted no more than an hour, and so this factor does not support a finding of
physical or psychological coercion (Rith’s interrogation lasted no more than 45 minutes). In
Rith, the Tenth Circuit noted that that the record contained no evidence to suggest that 18 yearold Rith was susceptible to coercion because of his age, intelligence, or education. Rith, 164

31

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 32 of 40

F.3d at 1333. In this case as well, Ethan was 18, and had sufficient education and sophistication
of intelligence not only to build the IED at issue in this case, but also to build his own computer.
Tr. at 189. Also similar to Rith, Ethan and his family were voluntarily cooperating with law
enforcement. The agents were searching the Guillen home with the consent of the homeowner,
Mr. Guillen, and without objection from Ethan himself. There is no suggestion of any physical
punishment that took place during any of the time law enforcement was in the Guillen residence.
Therefore, the Court finds that Ethan’s statements to law enforcement, both pre-warning and
post-warning, were made voluntarily and were uncoerced.
Ethan’s waiver of his Miranda rights must also be voluntary in order for his post-warning
statements to be admissible. In order to be effective, a waiver must be made “voluntarily,
knowingly, and intelligently.” Miranda v. Arizona, 384 U.S. at 444. For a waiver to be knowing
and intelligent, it “must have been made with a full awareness both of the nature of the right
being abandoned and the consequences of the decision to abandon it.” Smith v. Mullin, 379 F.3d
919, 932 (10th Cir. 2004) (“Only if the totality of the circumstances surrounding the
interrogation reveal both an uncoerced choice and the requisite level of comprehension may a
court properly conclude that the Miranda rights have been waived.”); U.S. v. Morris, 287 F.3d
985, 989 (10th Cir.2002) (quoting Colorado v. Spring, 479 U.S. 564, 573 (1987)) (accord).
According to SA Rominger’s testimony at the hearing, which the Court finds to be
credible, Ethan indicated that he understood the Miranda warnings. After being read those
rights, Ethan never asked to stop the questioning or for an attorney. He refused to answer only
one question—whether he planned on making another device to attempt to kill the victim. Tr.
74; 80-83. This one refusal is one indication that Ethan understood what he was agreeing to and
what he was giving up in continuing to speak with the agents following his waiver.

32

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 33 of 40

B.

Failure to Record Waiver

Defendant attempts to make an issue of the fact that neither Ethan’s initial selfincriminating statement nor his Miranda waiver was memorialized in writing or by video or
audio recording. He suggests that this failure is a tactic “adapted to undermine” Miranda’s
effectiveness, and contends that the absence of a recording constitutes a failure of proof as to
whether the agents conducted their investigation within the bounds of the Fifth Amendment.
Doc. 63 at 17.10 Defendant refers to a District of New Mexico case in which United States
District Judge Christina M. Armijo stated:
The Court cannot require the United States to record interrogations. But if the
United States fails to record interrogations, it must bear the consequences in cases
such as the present where the actual words employed by the participants, their
tone of voice, and their body language are necessary factors in the Court’s
voluntariness analysis.”
966 F.Supp.2d 1180, 1186 (D.N.M. 2013). At the hearing, SA Rominger explained that
the recorder he customarily used for interview purposes ran out of batteries. As a result, he
recorded witness interviews with his phone, but by late evening the battery on his phone was
dead and so after that point he did not record any other interviews, including that of Defendant.
The Government disagrees with any untoward inference from the lack of a recording,
explaining that the recorded SA Rominger customarily used ran out of batteries. It is true that
the Fifth Amendment does not require the recording of post-arrest statements. See United States
v. Yunis, 859 F.2d 953, 961 (D.C.Cir. 1988) (“There is no constitutional requirement that
confessions be recorded by any particular means.”). On the other hand, a video recording of
Ethan’s pre-warning statement and Miranda waiver would have been most helpful in resolving
the more equivocal issues raised in this case. However, the Court will not make any negative
10

Det. Larranaga’s lapel camera did record a nine-minute video segment of Ethan’s post-warning statements,
explaining how he built the IED.

33

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 34 of 40

inferences regarding the voluntariness of the confession simply because certain portions of the
interview were not recorded, and thus finds that Ethan’s pre-warning and post-warning
statements to law enforcement, and his Miranda waiver, were made voluntarily.
VI.

Seibert Five-Factor Test
Defendant contends that the situation here mirrors that in Seibert, where the agent took

defendant’s confession, advised Seibert of her Miranda rights, and then had defendant repeat the
information she had just given.11

The Court finds that the facts here do not line up in

Defendant’s favor as they did in Seibert.
A.

Completeness and Detail of First Round of Interrogation

The police officer in Seibert questioned defendant for 30 or 40 minutes at the police
station (where defendant was clearly in custody for Miranda purposes), obtaining a full
confession by Seibert of her plan to avoid the appearance that her son had been unattended when
he died. Ethan was questioned for 18 minutes in his own home.

Thus, SA Rominger’s

questions were not the kind of “systematic” or “exhaustive” interrogation that would thwart the
purpose of a subsequent Miranda warning. See Seibert, 542 U.S. at 616 (noting that “the
questioning was systematic, exhaustive, and managed with psychological skill” and lasted for
thirty to forty minutes), cited in U.S. v. Crisp, 371 F. App’x 925, 930 (10th Cir. 2010); U.S. v.
Carrizales-Toledo, 454 F.3d 1142 (10th Cir. 2006) (brevity and spontaneity of officer’s initial
questioning reduced likelihood that it undermined subsequent Miranda warnings). Thus, this
first factor weighs in favor of admissibility of Ethan’s post-warning statements.
B.

Overlapping Content of the Two Statements

11

The Government did not offer an analysis under the five-factor Seibert test because its position is that Ethan was
not in custody at the time he made his initial admission, and thus Miranda warnings were not required.

34

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 35 of 40

Under the next Seibert factor, the Court considers whether the post-warning statement
overlapped the information given in the pre-warning statement, or whether the post-warning
statement provided significant new information. In Seibert, the interrogating officers covered the
same ground in both rounds of questioning, which the plurality believed could aggravate “any
uncertainty on [the suspect's] part about a right to stop talking about matters previously
discussed.” U.S. v. Carrizales-Toledo, 454 F.3d at 1152 (citing Seibert, 542 U.S. at 616). Here,
however, SA Rominger immediately advised Ethan of his Miranda rights when he made the
initial self-incriminating statement that he had created the device. The information that Ethan
provided after he received the warning was different from his pre-warning admission in that he
began describing to SA Rominger how he made the device and what components he used. Cmp.
Carrizales-Toledo,454 F.3d at 1142 (second Seibert factor not met where defendant provided
“significant new information” to the agent during the second questioning, including where he
received the marijuana, what he was paid for transporting it, and his intended destination). This
factor also weighs in favor of the admissibility of Ethan’s post-warning statements.
C.

Interrogation Environment and Continuity of Personnel

The third and fourth Seibert factors consider the timing and setting of the first and the
second interrogations and the continuity of police personnel. These factors weigh against the
admissibility of Ethan’s post-warning statements because the first and second rounds of
questioning occurred in the same location and continued with SA Rominger and SA Greene.
See, e.g., U.S. v. Aguilar, 384 F.3d 520, 525 (8th Cir. 2004) (holding that Seibert third factor cut
in favor of finding a Miranda violation where the defendant's two interrogations occurred in the
same room), cited in U.S. v. Crisp, 371 F. App'x 925, 930–31 (10th Cir. 2010).
D.

Continuity of Second Round

35

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 36 of 40

The final Seibert factor is the degree to which the interrogator’s questions treated the
second round as continuous with the first. In Seibert, the plurality expressed concern about
officers in the second interrogation referring back to the confession already given, believing that
such references create the impression that the second interrogation is a “mere continuation” of
the first, and that it would be “unnatural” for the suspect “to refuse to repeat . . . what had been
said before.” Carrizales-Toledo, 454 F.3d at 1152 (citing Seibert, 542 U.S. at 616-17). This
factor weighs more heavily supporting admissibility than against it. While the information
elicited in the second round of questioning technically arose from Ethan’s initial admission that
he made the IED, the second interrogation focused on a different subject: the details of how the
device was built and the reasons Ethan had for building it. There would have been little need for
reference back to the initial admission. Cmp. Carrizales-Toledo, 454 F.3d at 1152 (fifth factor
supported admissibility of post-warning statement where there was no evidence that the agents
ever referred back to defendant’s initial statements during the second interrogation).
Under this Seibert analysis, the Court finds that Ethan’s post-warning statements are
admissible. The two rounds of interrogation were not conducted in a way that could aggravate
any uncertainty on Ethan’s part about a right to stop talking about matters previously discussed.
Ethan was advised of his Miranda rights immediately after he admitted to making the device,
and before any further information or details were solicited or made. As a result, the Miranda
warning that was issued to Ethan functioned effectively and therefore allows the admission of the
post-warning statements.
VII.

Unlawful Detention/Arrest
Defendant contends that Ethan was unlawfully detained when he was directed to the

kitchen table and prevented from leaving the house or walking about the house without an escort.

36

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 37 of 40

Terry v. Ohio, 392 U.S. 1, 16 (1968)(a seizure occurs “whenever a police officer accosts an
individual and restrains his freedom to walk away.”). Defendant also argues that at the time that
the officers seized him, that seizure was not supported by probable cause and it was therefore
unreasonable. Michigan v. Summers, 452 U.S. 692, 700 (1981); see Manzanares v. Higdon, 575
F.3d 1135, 1144 (10th Cir. 2009) (there is probable cause if there is “reasonably trustworthy
information that would lead a reasonable officer to believe that the person about to be [seized]
has committed or is about to commit a crime”).
Ethan’s detention was based on a collection of the following information, facts and
evidence gleaned from the agents conversations with Tyler, Ethan and Mr. Guillen in initial
consensual conversations:

1. Mr. Guillen had purchased a pressure cooker for Ethan;
2. The pressure cooker was missing;
3. Mr. Guillen’s soldering iron was missing;
4. The soldering iron owned by Mr. Guillen appeared to be of the type and style used in
the IED;
5. A table located in the backyard had several burn marks and a piece of fuse stuck on it.
There are several flaws with Defendant’s argument.

First, it is premised on an

assumption that the agents’ entry into the home was unlawful so that any evidence obtained
subsequently must be suppressed. See U.S. v. Harris, 313 F.3d 1228 (10th Cir. 2002). The Court
has found that the agents’ entry into the house was lawful, and that both Tyler and Mr. Guillen
voluntarily cooperated with the agents in the discussions they had. Second, Ethan was not in
custody after the agents first entered the house or for most of the interrogation period. He was
not in custody until SA Rominger pushed the interrogation harder and confronted Ethan with all
the incriminating evidence and information that had been gleaned from the search and the
interviews. Until that time, Ethan had been voluntarily cooperating with law enforcement. Third,

37

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 38 of 40

by the time law enforcement had gathered information from Tyler and Mr. Guillen and found the
table in the backyard with burn marks, there was sufficient reason to detain Ethan further and
thus the detention was lawful. Finally, after Ethan admitted to making the device, together with
the evidence and information obtained by that time, probable cause existed to arrest him. As a
result, the Court finds that Ethan was not unlawfully detained or arrested.
VIII. Suppression of Evidence
Defendant seeks to suppress both the evidence collected from the Guillen home as well as
any statements made by Mr. Guillen.12 This argument is based on the unlawfulness of the
officers’ entry into the home and the search of the residence, and thus any evidence obtained is
the “fruit” derived from an unlawful entry and search and must be suppressed.

Again,

Defendant’s argument fails because the Court has found that both the entry and the search were
lawful. Therefore, neither Mr. Guillen’s statements nor any evidence obtained from the search
must be suppressed and Defendants’ motion is denied on that ground.
CONCLUSION
The purpose of a suppression hearing is “to determine preliminarily the admissibility of
certain evidence allegedly obtained in violation of defendant's rights under the Fourth and Fifth
Amendments.” United States v. Merritt, 695 F.2d 1263, 1269 (10th Cir.1982). “The proper
inquiry is whether [the challenged action] violated the Fourth Amendment rights of [the]
criminal defendant making the challenge.” United States v. Allen, 235 F.3d 482, 489 (10th
Cir.2000) (quoting United States v. Erwin, 875 F.2d 268, 270 (10th Cir.1989) (paraphrasing in
original)). “The proponent of a motion to suppress has the burden of adducing facts at the

12

As discussed earlier, courts have rejected the application of “fruit of the poisonous tree doctrine” to Miranda
violations, making it clear that a failure to administer Miranda warnings, without more, does not automatically
require suppression of the “fruits” of the uncounseled statement. U.S. v. McCurdy, 40 F.3d 1111, 1117 (10th
Cir.1994) (relying on Oregon v. Elstad, 470 U.S. 298, 305-06 (1985).

38

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 39 of 40

suppression hearing indicating that his own rights were violated by the challenged search.”
United States v. Eckhart, 569 F.3d 1263, 1274 (10th Cir.2009) (quoting Allen, 235 F.3d at 489).
The controlling burden of proof at a suppression hearing is proof by a preponderance of the
evidence. United States v. Matlock, 415 U.S. 164, 177 n. 14 (1974). While the Court finds that
Defendant was in custody when he made the self-incrimination admission that he made the IED,
the Court also finds that Defendant has not met his burden that would result in suppression of
either the physical evidence found as a result of the search or the statements made by Mr.
Guillen. Defendant has met his burden with regard to Ethan’s pre-warned admission, but not
with respect to Ethan’s post-warned statements which are thus admissible.
The Court finds and concludes as follows:
(1) Both Ethan and Tyler consented to the agents’ entry into the Guillen residence, and
Ethan did not object during the entry or subsequently to the agents’ presence in the house;
(2) Mr. Guillen had apparent authority to consent to the search of the house, including the
master bedroom which Ethan occupied, and Ethan did not object to the search at any time.
Therefore, the agents did not violate Ethan’s Fourth Amendment rights;
(3) Ethan was in custody for purposes of Miranda when he first admitted to making the
IED, in violation of Ethan’s Fifth Amendment rights, but he was not in custody prior to that
time;
(4) Ethan’s statements to law enforcement, including his initial admission, were made
voluntarily and were uncoerced, and thus his waiver of Miranda rights was voluntary, intelligent
and knowing. Therefore, while Ethan’s pre-warned statement must be suppressed, his postwarned statements are admissible under Oregon v. Elstad, 470 U.S. 298, 318 (1985) and
Missouri v. Seibert, 542 U.S. 600 (2004);

39

Case 1:17-cr-01723-WJ Document 68 Filed 05/03/18 Page 40 of 40

(5) Ethan was not unlawfully detained or arrested in violation of his Fourth Amendment
rights; and finally,
(6) Because the entry and search were lawful, neither Mr. Guillen’s statements nor any
evidence obtained from the search must be suppressed and Defendants’ motion is denied on that
ground.
THEREFORE,
IT IS ORDERED that Defendant’s motion to Suppress Evidence and Statements
Discovered as a Result of Unlawful Search and Seizure (Doc. 31) is GRANTED only to the
extent that Defendant’s initial self-incriminating statement to law enforcement is suppressed, but
the motion is DENIED on all other grounds for the reasons set forth in this Memorandum
Opinion and Order.

_____________________________________
CHIEF UNITED STATES DISTRICT JUDGE

40

